               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Transportation Management Service
        Provider Shipping Process

                       Audit Report




                                              February 24, 2014

Report Number SM-AR-14-003
                                                                     February 24, 2014

                                               Transportation Management Service
                                                       Provider Shipping Process

                                                       Report Number SM-AR-14-003



BACKGROUND:                                 their invoices. The Postal Service took
Transportation Management Service           responsibility for all shipping costs on
Provider (TMSP) is the U.S. Postal          future TMSP shipments and directed the
Service's national contract for shipping    supplier to exclude shipping costs in the
non-mail freight items, such as supplies,   future.
parts, and equipment used for postal
operations. When determined cost            In addition,                audit process
beneficial, the Postal Service requires     did not provide sufficient controls over
its suppliers to use the TMSP contract to   the TMSP contract to confirm receipt of
deliver products and not charge for         shipments. Specifically,               did
shipping on their invoices. Between April   not validate whether Postal Service
2011 and March 2013, the Postal             officials received all 87 sampled
Service paid C.H. Robinson Worldwide,       shipments and did not require all
the primary TMSP, about $68 million for     recipients to respond to their proof of
shipping services from more than 1,100      delivery surveys. We statistically
suppliers.              LLC, an             projected at least $2,566,084 in
independent audit company, audits           unsupported questioned costs because
TMSP shipments quarterly to confirm         officials did not validate receipt of
the Postal Service received shipments       shipments.
and paid accurate rates.
                                            Further, officials did not confirm that
Our objective was to determine whether      3,818 potential overcharges
suppliers using the TMSP contract           identified were valid and did not pursue
charged the Postal Service for shipping     credits due to the Postal Service. We
and that shipments were received. This      claimed $246,683 as assets at risk
audit focused on shipping charges from      because the Postal Service did not have
13 suppliers, which accounted for about     procedures to sufficiently identify and
$28 million (or 41 percent) of overall      pursue shipping overcharges.
shipment costs.
                                            WHAT THE OIG RECOMMENDED:
WHAT THE OIG FOUND:                         We recommended management
Twelve of the 13 suppliers using TMSP       develop an alternative process to verify
did not include shipping costs on their     receipt of shipments and develop
invoices. However, the Postal Service       detailed procedures to address potential
could not determine whether one             overcharges.
supplier included shipping costs for 80
shipments, valued at $51,550, because       Link to review the entire report
the supplier did not itemize all costs on
February 24, 2014

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Transportation Management Service Provider
                           Shipping Process
                           (Report Number SM-AR-14-003)

This report presents the results of our audit of the U.S. Postal Service's Transportation
Management Service Provider Shipping Process (Project Number 13WG010SM000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Transportation Management Service                                                                                  SM-AR-14-003
 Provider Shipping Process


                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Identification of Shipping Costs ....................................................................................... 2

Proof of Delivery Discrepancies ...................................................................................... 3

Oversight of Rate Quote Audit Exceptions ...................................................................... 5

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Monetary and Other Impacts..................................................................... 10

Appendix C: Management’s Comments ........................................................................ 11
Transportation Management Service                                                SM-AR-14-003
 Provider Shipping Process



Introduction

This report presents the results of our audit of the U.S. Postal Service's Transportation
Management Service Provider (TMSP) Shipping Process (Project Number
13WG010SM000). This audit was the result of a value proposition between the U.S.
Postal Service Office of Inspector General (OIG) and the manager of the Supply
Management Facilities Portfolio. Our objective was to determine whether suppliers
using the TMSP contract charged the Postal Service for shipping costs and determine
the Postal Service’s receipt of shipments. See Appendix A for additional information
about this audit.

TMSP is the Postal Service's national contract for shipping non-mail freight items, such
as supplies, parts, and equipment used for postal operations. When determined cost
beneficial, the Postal Service requires its suppliers to use the TMSP contract to deliver
products and not charge for shipping. Between April 2011 and March 2013, the Postal
Service paid C.H. Robinson Worldwide, the primary TMSP, about $68 million for the
shipping services of more than 1,100 suppliers. We reviewed about $28 million in
shipping charges from 13 suppliers, 41 percent of the overall shipment costs.
    , LLC, an independent audit company, audits TMSP shipments quarterly to confirm
the Postal Service received shipments and paid accurate rates.

Conclusion

Twelve of the 13 suppliers using the TMSP contract did not include shipping costs on
their invoices. However, officials could not determine whether one supplier included
shipping costs for 80 shipments, valued at $51,550, because the supplier did not
itemize all costs on their invoices. The Postal Service took responsibility for all shipping
costs on future TMSP shipments and directed the supplier to exclude them from future
invoices.

In addition,              audit process did not provide sufficient controls over the TMSP
contract to confirm receipt of shipments.              did not validate whether Postal
Service officials received all sampled 87 shipments and did not require all recipients to
respond to their proof of delivery surveys. We statistically projected at least $2,566,084
in unsupported questioned costs because officials did not validate receipt of shipments.

Officials did not confirm that 3,818 potential overcharges           identified were
valid and did not pursue credits due to the Postal Service. We claimed $246,683 as
assets at risk because the Postal Service did not have procedures to sufficiently identify
and pursue shipping overcharges. See Appendix B for monetary impact details.




                                              1
Transportation Management Service                                                                           SM-AR-14-003
 Provider Shipping Process



Identification of Shipping Costs

Postal Service officials had sufficient controls in place to prevent or detect shipping
charges in the invoice process for 12 of the 13 suppliers we tested and did not pay
shipping charges to those 12 suppliers. However, the Postal Service could not
determine whether                                                                   a
supplier of program management services,1 billed shipping charges for 80 shipments
valued at $51,550 that occurred from the end of June 2012 to March 2013. We claim
assets at risk of $51,550 in shipping costs for these 80 shipments. See Appendix B for
additional information.

The Postal Service had a direct relationship with the other 12 suppliers and could obtain
detailed information and invoices, whereas             is a program management
company that secured proposals and invoices from subcontractors. Work under the
           contract was firm-fixed price2 (FFP), which did not require          or its
subcontractors’ proposals or invoices to identify shipping costs. The           ' contract
required the supplier and subcontractors to be responsible for shipping;, therefore, it
included shipping costs in the overall invoice with materials orders. In April 2012, the
Postal Service changed the shipping method for cabinetry materials to F.O.B. Origin,3
making the Postal Service responsible for shipping. However, the Postal Service could
not determine whether shipping charges were included in invoices for proposals
originating before April 2012 because they were not detailed enough to allow a
determination. The Postal Service had no guidelines for obtaining such detailed
information and management stated this level of detail is not required for FFP work. As
a result, there was a risk that such charges were still included in        ' pricing.

From April to June 2012, the Postal Service delayed telling            to use the TMSP
process for cabinetry material orders and not include shipping costs in its bids;
therefore,           continued to charge the Postal Service shipping costs for these
materials. This resulted in           owing the Postal Service for shipping costs billed
between April and June 2012. However, because shipping costs were not itemized on
facilities’ work orders or the supplier’s proposals and invoices, the Postal Service could
not determine the amount              owed and, instead, relied on the supplier to calculate
the amount due.              determined the Postal Service was due $32,104 and the
Postal Service agreed with this amount.

The         contract expired in July 2013 and the Postal Service awarded a new
program management service contract to three suppliers, including        . Because
the TMSP contract uses the F.O.B. Origin shipping method and the Postal Service


1
            provided multiple real estate- and facilities-related services that support the national facilities program.
2
  A firm-fixed-price contract obligates the supplier to deliver the product or service specified by the contract for a fixed
price. The amount of profit the supplier receives depends on the actual cost outcome. Supplying Principles and
Practices, Section 2-18.3, Firm-Fixed-Price Contract, September 2013.
3
  F.O.B. Origin means the Postal Service arranges for pick-up, transportation, and delivery to the required
destination. Supplying Principles and Practices, Section 4-2.5, Free-On-Board (F.O.B) Destination, September 2013.

                                                             2
Transportation Management Service                                                          SM-AR-14-003
 Provider Shipping Process


directed suppliers using the TMSP contract to exclude shipping costs for future
cabinetry orders, we are not making a recommendation.

Proof of Delivery Discrepancies

The Postal Service must improve oversight of the TMSP audit process for validating
shipment receipt.               did not verify that the signature of a designated Postal
Service official was on the bill of lading for all 87 shipments we sampled. This occurred
because                audit methodology does not require such verification but only
confirmation of a signature. Management stated there is too much turnover to expect
             to keep up with personnel changes at the Postal Service and the risk does
not outweigh the cost of requiring such validation. Without verification that the recipient
is a designated Postal Service official, there is a risk that Postal Service facilities will not
receive shipments or unauthorized personnel will receive them.
The survey                mailed to a sample of Postal Service receiving locations was
insufficient to confirm receipt of deliveries. Managers were instructed to respond only if
they could not confirm receipt of shipments.              reported that it received 10 of
the 330 surveys it mailed using this negative confirmation technique and, therefore,
claimed a delivery confirmation rate of 97 percent or better. However, we tested 87
shipments, with shipping charges totaling $99,047, from                  sampling data,
and Postal Service personnel could only provide a bill of lading for 17 of them (20
percent) as evidence of receipt of goods (see Figure 1).

Of the missing 70 bills of lading:

     Thirty receiving managers (43 percent) failed to respond to the request to indicate
      whether they received the shipment. This included one shipment sent to a facility
      that does not appear to be a valid Postal Service facility. This shipment was referred
      to the OIG Office of Investigations for resolution.

     Twelve receiving managers (17 percent) responded that the bills were requested
      outside the retention window, claiming the window ranged from 30 days to 1 year.
      However, policy requires the receiving manager to retain the bill of lading for 4
      years.4

     Twelve receiving managers (17 percent) could not find the bill of lading.

     Seven receiving managers (10 percent) stated that paperwork was lost during a
      change in management or location.

     Seven receiving managers (10 percent) stated that receiving personnel did not retain
      the bills.



4
    Handbook AS 701, Material Management, Section 221.3, Document Retention, April 2012.

                                                        3
Transportation Management Service                                                                  SM-AR-14-003
 Provider Shipping Process


   Two receiving managers (3 percent) stated that bills were sent offsite to the
                                                         and not returned.


                       Figure 1. Explanation for Missing Bills of Lading




Source: OIG review of bills of lading as of September 19, 2013.


             used the negative confirmation survey to reduce the burden of requiring a
response from recipient locations. However, using negative confirmations presents a
risk of false-positive results where shipments are not received but the destination facility
does not receive or act on the confirmation request. The American Institute of Certified
Public Accountants5 discourages using negative confirmation surveys during internal
audits unless these three criteria are met: dollar amounts are small, internal controls
adequately reduce risk, and the auditors can reasonably expect the recipient’s attention
to the survey. Because of the $68 million in shipping costs within our audit's scope, the
prior OIG audit6 that uncovered inadequate internal controls, and the poor rate of
responses to the OIG’s survey during this audit, using a negative confirmation process
presents an increased risk of false-positive results.

               audit process does not provide sufficient controls over the TMSP contract
to confirm the delivery of goods. Therefore, we statistically projected at least $2,566,084
in unsupported questioned costs because managers at Postal Service recipient
locations could not produce copies of bills of lading to validate receipt. See Appendix B
for additional information.




5
  American Institute of Certified Public Accountants, Statements on Auditing Standards No.67 and McConnell, D. &
Banks, G., A Common Peer Review Problem.
6
  The Postal Service’s Certification Process for Non-Mail Freight Transportation Invoices (Report Number CA-AR-09-
002, issued February 18, 2009).

                                                         4
Transportation Management Service                                                                   SM-AR-14-003
 Provider Shipping Process



Oversight of Rate Quote Audit Exceptions

Postal Service officials did not confirm that potential overcharges             identified
were valid and did not pursue credits due to the Postal Service. Between April 1, 2011,
and March 31, 2013,                identified 3,818 invoiced transaction exceptions with
potential overcharges totaling $255,667. An exception occurred when the amount paid
differed from the quoted shipping rate.

Postal Service officials claimed that the majority of the exceptions were invalid and the
result of incorrect information used in the audit process. They stated that elements such
as dimensions, pick-up date,7 and weight were incorrect when the rate was quoted or
contracted rates were incorrect while the audit was being conducted. However, Postal
Service officials did not have adequate procedures in place to address the potential
overcharges                identified. With inaccurate data and insufficient procedures to
identify and pursue overcharges, the Postal Service is at risk of overpaying for shipping
costs. We claim $246,683 as assets at risk for 3,818 shipping transactions. See
Appendix B for additional information.

Recommendations

We recommend the vice president, Supply Management, direct the manager, Asset
Management, to:

1. Develop and implement an alternative process to                 use of negative
   confirmation to ensure that all shipments are received and follow up on any
   exceptions identified.

2. Develop and implement detailed procedures to address the rate quote exceptions
   identified and pursue credits owed to the Postal Service.

Management’s Comments

Management generally agreed with the findings, recommendations, and monetary
impacts associated with this report. In response to recommendation 1, management
stated that, because of the potential increased costs associated with these suggested
changes, they will further assess the program and develop new requirements for
auditing their freight invoices. They anticipate a new statement of work and
establishment of an internal process for managing identified exceptions based on those
new requirements. Management will issue a solicitation before the September 30, 2014,
expiration of the current contract. The target implementation date is July 2014.

Regarding recommendation 2, management stated that, in coordination with their
response to recommendation 1, they will assess the rate quote exception process to

7
 Extended period of time between the quoted and actual pick-up date can affect fuel surcharges and carrier
availability.

                                                         5
Transportation Management Service                                          SM-AR-14-003
 Provider Shipping Process


determine the best approach to address this concern. The target implementation date is
July 2014. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report. However, we want to reiterate that management’s plan of action regarding
recommendations 1 and 2 should include processes to validate receipt of shipments,
ensure the accuracy of rates paid, and pursue credits owed to the Postal Service.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           6
Transportation Management Service                                                                  SM-AR-14-003
 Provider Shipping Process


                                Appendix A: Additional Information

Background

The TMSP is the Postal Service's national contract for shipping non-mail freight items.
When cost beneficial, the Postal Service requires its vendors to use the TMSP contract
to deliver products. When using the TMSP contract, vendors must not include shipping
charges on their invoices. Between April 2011 and March 2013, the Postal Service paid
C.H. Robinson Worldwide, the primary TMSP, about $68 million for the shipping
services of more than 1,100 suppliers, constituting 93 percent of all TMSP shipments.

          manages construction under the Postal Service's Leased Space Accessibility
Program. Under the program,             ' subcontractors' orders for construction supplies
were shipped using the TMSP contract beginning April 13, 2012, but               was not
notified of the change until June 6, 2012. Because of this delay,           negotiated a
credit of $32,104 based on the TMSP contract's shipping costs for those products
shipped from April 13 to June 5, 2012. The Postal Service depended on               to
negotiate the credit on its behalf.

            , an independent audit company, audits TMSP shippings quarterly to confirm
the Postal Service received shipments and paid accurate rates. The Postal Service
contracted              because of a prior OIG audit,8 which recommended
implementing written procedures for the independent review of transportation invoices
to confirm the receipt of goods and services and ensure accurate payment.

              audit of proof of delivery documents includes reviewing bills of lading and
confirming a consignee signature on the documentation indicating receipt of shipments.
It conducts this audit quarterly on a sample of 360 shipments. Documents are primarily
retrieved from carrier websites. For 10 percent of the sample,              also uses a
negative confirmation method requiring receiving locations to respond only if they
cannot confirm receipt of shipments.

              audit of rate quotes consists of auditing freight charges against carrier
contract or spot rates9 as provided by C.H. Robinson Worldwide.                 reviews
shipping rate sheets and identifies discrepancies between the quoted rate and the
actual rate C.H. Robinson Worldwide invoices to the Postal Service.                 flags
any discrepancies between these two rates as exceptions. C.H. Robinson Worldwide
reviews the list of exceptions and provides summary explanations to the Postal Service.




8
  The Postal Service’s Certification Process for Non-Mail Freight Transportation Invoices (Report Number CA-AR-09-
002, issued February 18, 2009).
9
  An “on the spot” rate request. These quotes are for unique, one-time shipments.

                                                        7
Transportation Management Service                                                                     SM-AR-14-003
 Provider Shipping Process



Objective, Scope, and Methodology

Our objective was to determine whether suppliers using the TMSP contract charged the
Postal Service for shipping costs and determine the Postal Service’s receipt of
shipments.

To accomplish our objective we:

    Sampled suppliers’ invoices10 that used the primary TMSP contract and C.H.
     Robinson Worldwide11 from April 1, 2011, through March 31, 2013. We analyzed
               contract and invoices during our survey and sampled an additional 12
     external suppliers during fieldwork.

    Examined 12 suppliers with $500,000 or greater in shipping charges. The charges
     from these suppliers accounted for about 41 percent of the total freight charges in
     our scope.

    Reviewed Postal Service criteria, guidelines, and procedures on the TMSP process.

    Interviewed contracting officials to determine how suppliers use TMSP and how the
     Postal Service pays its invoices.

    Identified instances where F.O.B. Origin contracts were identified in the Contract
     Authoring and Management System and on Postal Service Form 8203 as F.O.B.
     Destination12 contracts.

    Reviewed supplier contracts to determine whether the requirement for suppliers to
     use the TMSP contract for shipping was in the contract.

    Interviewed                officials to determine how they derived credits for TMSP
     shipments.

    Identified proof of delivery samples and sent survey letters to recipient locations and
     requested bills of lading to confirm whether shipment receipt.

    Analyzed product invoices and bills of lading we received from suppliers to
     determine whether they included shipping charges in their per unit price.

    Determined whether the Postal Service received credits from rate quote exceptions
               identified.


10
   Our scope included shipping costs, not the cost of the product.
11
   We focused only on the primary TMSP, because C.H. Robinson Worldwide handles the majority of TMSP
shipments and accounts for the majority of shipping costs.
12
   F.O.B. Destination means free delivery for the Postal Service to a destination or shipment base point specified in
the contract. Supplying Principles and Practices, Section 4-2.5, Free-On-Board (F.O.B) Destination, September 2013.

                                                         8
Transportation Management Service                                                SM-AR-14-003
 Provider Shipping Process


We conducted this performance audit from February 2013 through January 2014, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on January 21, 2014, and included
their comments where appropriate.

We assessed the reliability of computer-generated data by analyzing and validating
invoices we received from suppliers and the corresponding bills of lading and
interviewing Postal Service officials who were knowledgeable about the data. We
determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              9
Transportation Management Service                                                                    SM-AR-14-003
 Provider Shipping Process



                            Appendix B: Monetary and Other Impacts

                                              Monetary Impacts

           Recommendation                       Impact Category                             Amount
                 1                        Unsupported Questioned Costs13                   $2,566,084

                                                 Other Impacts

            Recommendation                         Impact Category                        Amount
                  2                                 Assets at Risk14                       $298,233

We performed a variable sample that allowed us to extrapolate results from a universe
of 2,910 shipments, valued at $2,976,183, and identified as proof of delivery exceptions
from April 1, 2011, to March 31, 2013. We found discrepancies with 71 of the 87
shipments tested ($99,047 worth) because Postal Service recipient locations could not
produce evidence confirming the receipt of shipments. At a 95-percent confidence level,
we projected that at least $2,566,084 of the $2,976,183 are unsupported costs because
Postal Service recipient locations could not produce copies of the bills of lading to
validate receipt. We claimed this amount as unsupported questioned costs because of
missing or incomplete documentation or failure to follow policy or required procedures
but this does not necessarily indicate that the Postal Service incurred actual loss.

The $298,233 in assets at risk includes $246,683 in shipping costs the Postal Service is
at risk of overpaying because it does not have sufficient procedures to identify and
pursue overcharges and $51,550 because a lack of controls to ensure transparency,
thus increasing the risk of incurring shipping costs that go unnoticed.




13
   A weaker claim and a subset of questioned costs. Claimed because of failure to follow policy or required
procedures but does not necessarily connote any real damage to Postal Service.
14
   Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.

                                                         10
Transportation Management Service                             SM-AR-14-003
 Provider Shipping Process


                          Appendix C: Management’s Comments




                                         11
Transportation Management Service        SM-AR-14-003
 Provider Shipping Process




                                    12
